CERTIFICATE OF COMPLIANCE
Case No. 20-601
Caption: Cameron v. EMW Women's Surgical
Center, P.S.C., et al.
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 8,568 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 5, 2021.

Record Press, Inc.

Sworn to before me on
February 5, 2021

esSm~

JASMINE WILLIAMS
Notary Public, State of New York
No. 01WI6397949
Qualified in Queens County
issi~Ex .

Notary Public

